U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

April 12, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re: Doe Company v. United States, No. 20-1141
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on January 29,
2021. The government’s response is now due, after one extension, on April 26, 2021. We
respectfully request, under Rule 30.4 of the Rules of this Court, a further extension of time to and
including May 25, 2021, within which to file a response.
This extension is necessary because the attorneys with principal responsibility for
preparation of the government’s response have been heavily engaged with the press of previously
assigned matters with proximate due dates.
Counsel for petitioner does not oppose this further extension.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General
cc:

See Attached Service List

20-1141
DOE COMPANY
USA

WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N. STREET, NW.
WASHINGTON, DC 20036
202-346-4000
WJAY@GOODWINLAW.COM
EMILY M. NOTINI
GOODWIN PROCTER LLP
100 NORTHERN AVENUE
BOSTON, MA 02210
RICHARD M. STRASSBERG
GOODWIN PROCTER LLP
620 8TH AVENUE
NEW YORK, NY 10018

